No.20-

INTHE

Supreme @ourt of tlle Wnite[ btuteg
CIrv or Nnw YonN,
Petitioner,
U.

UNttnn Srargs DnpentuENT oF JustICn, et al.,
Respondents.
ON

PnrrrroN FoR

l

WRrr oF

ro run UNrtno Surns Counr or Appnu,s FoR THE
Sncoxn Crncun

CERTToRART

CERTIFICATE OF SERVICE
I, Jamison Davies, am a member of the Bar of this Court and certify that on December 7 , 2020,I
served the Petition for Writ of Certiorari on the following parties via overnight delivery:
Jeffrey B. Wall
Acting Solicitor General
950 Pennsylvania Avenue NW
Washington, D.C. 20530
SuprerneCtBriefs @usdoj . gov
(202) sr4-22r7
Counsel for United States Department
of Justice and William P. Barc

Letitia James
Attorney General, State of New York
28 Liberty Street
New York, NY 10005
Linda. Fanc@,ag.ny. sov
(212) 4r6-86s6
Counsel for State of New York, State
Connecticut, State of New Jersey, State

Rhode Island, State of

of
of

Washington,

Commonwealth of Massachusetts, and
Commonwealth of Virginia

I certify that all parties required to be served have been served.

Dated:

New York, New York
December 7,2020

il-

